*1

>

Order of California Supreme Court
(October 14, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

SUPREME COURT

OCT 14 2020

Court of Appeal, Second Appellate District, Division Eight - No. B289869
Jorge Navarrete Cle
S263959

IN THE SUPREME COURT OF CALIFORNIA
En Banc

ANTHONY A. PATEL, Plaintiff and Appellant,
v.

REGENTS OF THE UNIVERSITY OF CALIFORNIA, Defendant and Respondent.

The petition for review is denied.
Groban, J., was recused and did not participate.

CANT1L-SAKAUYE
Chief Justice

Deputy

Opinion of California Court of
Appeal
(July 6, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

*

<
COURT OF APPEAL - SECOND DIST.

FILED
Jul 06, 2020
DANIEL P. POTTER, Clerk
Richard Cardenas

Filed 7/6/20

-------------------------

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115._____________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
ANTHONY A. PATEL

B289869

Plaintiff and Appellant,

(Los Angeles County
Super. Ct. No. BC548778)

v.

REGENTS OF THE
UNIVERSITY OF
CALIFORNIA,
Defendant and Respondent.

APPEAL from a judgment of the Superior Court of Los
Angeles County. Laura C. Ellison, Judge. Affirmed.
Anthony A. Patel, in pro. per., for Plantiff and Appellant.
Cole Pedroza, Kenneth R. Pedroza, Dana L. Stenvick,
Kristin M. Tannler; Lewis Brisbois Bisgaard & Smith and
Gregory Lynch for Defendant and Respondent.
'k’k'k'k'k'k'k'k'k’k

Deputy Clerk

Plaintiff and appellant Anthony A. Patel appeals from the
judgment entered, after a jury trial, in favor of defendant and
respondent Regents of the University of California.

We affirm.

FACTUAL AND PROCEDURAL BACKGROUND
In 2014, plaintiff filed this action alleging, among other
things, that defendant and its employees invaded his right to
privacy. Plaintiffs claims all stem from his allegation he was
misdiagnosed by doctors in the emergency department at Ronald
Reagan UCLA Medical Center, a hospital operated by defendant.
Plaintiff contends that on the evening of June 14, 2013, and into
the early morning hours of June 15, he was wrongly held in the
emergency department, evaluated under false pretenses, and
given a false diagnosis of bipolar disorder—a diagnosis that was
wrongfully shared with his then-wife who was present at the
hospital and was one of the family members who sought to have
him evaluated that evening. Plaintiff requested a declaratory
judgment that he was misdiagnosed, unspecified equitable relief,
and damages, including damages arising from his wife’s
subsequent use of the misdiagnosis to harm him in their divorce
proceedings.
After several challenges to the pleadings (including
demurrers and motions for summary judgment by both parties),
the case proceeded to a jury trial in January 2018 on plaintiffs
operative second amended complaint. Plaintiff, who testified he
was a licensed attorney in California until resigning from the
State Bar in December 2016, represented himself at trial. At the
conclusion of plaintiffs case-in-chief, the trial court granted
defendant’s motion for nonsuit as to all causes of action, except
for the invasion of privacy claims (public disclosure of private

2

facts and false light). Defendant presented additional testimony
and then the case was given to the jury.
The jury returned a defense verdict. Plaintiff filed various
posttrial motions, including a motion for judgment
notwithstanding the verdict. The court denied all of plaintiffs
posttrial motions except the motion to tax costs which it granted
in part, taxing some of defendant’s costs itemized as reporter’s
fees. The amended judgment was entered in defendant’s favor on
April 24, 2018.
This appeal followed.
DISCUSSION
Plaintiffs brief enumerates 22 alleged claims of error by
the trial court and requests reversal of the judgment. Plaintiffs
brief consists entirely of repetitive, generalized pronouncements
that the court committed various errors and was biased against
him, as were defendant’s doctors and nurses. The brief contains
almost no citations to the record. There are no citations to legal
authorities to support any legal points. No points are developed
with citations to the law or the record. Plaintiff s brief reflects
his deeply held behef he was unfairly treated and misdiagnosed
simply because he wanted to divorce his wife and had lofty
political aspirations, but fails to affirmatively show error by the
trial court. We therefore affirm.
“ ‘A judgment or order of the lower court is presumed
correct. All intendments and presumptions are indulged to
support it on matters as to which the record is silent, and error
must be affirmatively shown. This is not only a general principle
of appellate practice but an ingredient of the constitutional
doctrine of reversible error.’ [Citations.]” (Denham v. Superior
Court of Los Angeles County (1970) 2 Cal.3d 557, 564, first italics

3

in the original, second italics added.) It was incumbent upon
plaintiff, as the appellant, to “affirmatively demonstrate error
through reasoned argument, citation to the appellate record, and
discussion of legal authority.” (.Bullock v. Philip Morris USA, Inc.
(2008) 159 Cal.App.4th 655, 685.)
An appellant’s brief must “[s]upport any reference to a
matter in the record by a citation to the volume and page number
of the record where the matter appears.” (Cal. Rules of Court,
rule 8.204(a)(1)(C).) Plaintiffs brief fails to make any meaningful
citation to the record which consists of 13 volumes of an appendix
(over 3,000 pages) and five volumes of reporter’s transcript. We
are not required to make an independent, unassisted study of
the record in search of error or grounds to support the judgment.’
[Citations.] It is the duty of [appellant] to refer the reviewing
court to the portion of the record which supports appellant’s
contentions on appeal. [Citation.] If no citation ‘is furnished on a
particular point, the court may treat it as waived.’ ” (Guthrey v.
State of California (1998) 63 Cal.App.4th 1108, 1115; accord,
Young v. Fish & Game Com. (2018) 24 Cal.App.5th 1178, 11901191; Roman v. BRE Properties, Inc. (2015) 237 Cal.App.4th
1040, 1053; Byars v. SCME Mortgage Bankers, Inc. (2003)
109 Cal.App.4th 1134, 1140.)
Moreover, a brief must, among other things, support each
contention with “argument and, if possible, by citation of
authority” and “[p]rovide a summary of the significant facts
limited to matters in the record.” (Cal. Rules of Court,
rule 8.204(a)(1)(B) & (2)(C).) There is no citation to relevant
authority in plaintiffs brief, nor any discussion or application of
the law to the specific facts and claims of error plaintiff purports
to raise. “When an issue is unsupported by pertinent or
« 6

4

cognizable legal argument it may be deemed abandoned and
discussion by the reviewing court is unnecessary.” {Landry v.
Berryessa Union School Dist. (1995) 39 Cal.App.4th 691, 699700.)
Plaintiff does briefly mention some cases discussing
standards of appellate review generally, but again there is no
citation to the specific standards relevant to each contention.
Rather, plaintiff invites us to simply review the entire record de
novo “in order to ensure that the correct and fair result is
achieved pursuant to the California Constitution.” Appellate
arguments must be tailored “ ‘to the applicable standard of
appellate review.’ [Citation.] Failure to acknowledge the proper
scope of review is a concession of a lack of merit.” (Sonic
Manufacturing Technologies, Inc. v. AAE Systems, Inc. (2011)
196 Cal.App.4th 456, 465.)
The fact plaintiff, who is a formerly licensed attorney, is
representing himself on appeal does not exempt him from
following these rules. (Nwosu v. Uba (2004) 122 Cal.App.4th
1229, 1246-1247.) “[A] party may choose to act as his or her own
attorney. [Citations.] ‘[S]uch a party is to be treated like any
other party and is entitled to the same, but no greater
consideration than other litigants and attorneys. [Citation.]
{Id. at p. 1247.)
5 5?

5

*

*■

DISPOSITION
The judgment entered in favor of defendant and respondent
Regents of the University of California is affirmed.
Defendant shall recover costs of appeal.

GRIMES, Acting P. J.
WE CONCUR:
STRATTON, J,

CHANEY, J.*

Justice of the Court of Appeal, Second Appellate District,
Division One, assigned by the Chief Justice pursuant to
article VI, section 6 of the California Constitution.

6

